                      NATIONAL SCIENCE FOUNDATION
                          ARLINGTON, VA 22230




    Office of
Inspector General




 SUBJECT:b Allegation
             -    f   o
        TO:   Case No. I94060027




                                   -
-
N S reGealed
     ~       t     h   a   t and      employees were really those of
                 ~llegedl~,-         knew that his recommendation of
                    to NSF would benefit him after his retirement.
                     ted as an authorized subcontractor unde-
and ~     N    S contract.
                    F
On May -.-19, -1994, s      and SA-       interviewed NSF employees
                  (CPO),             (OPP), -
                                            n
                                            a             (OPP). NO
information ?ndicating wrong-doing b            was discovered. SA
         periodically updated this o f f m r t h e r developments.
NASA issued a subpoena for
                             a       bank records and interviewed
        employees, but no evl ence or admissions were obtained.
          will remain open at NASA OIG. However, further NSF OIG
investigation of the allegation is not warranted at this time.
This case is closed.
